March 13, 2008

MICHAEL J. NAPPI
EXECUTIVE DIRECTOR, INTERNATIONAL OPERATIONS

GERALD J. KUBICK
MANAGER, J. T. WEEKER INTERNATIONAL SERVICE CENTER

SUBJECT: Audit Report – Mail Condition Reporting at the J. T. Weeker International
         Service Center (Report Number NO-AR-08-001)

This report presents the results of our audit of mail condition reporting at the J. T.
Weeker International Service Center (Chicago ISC) in Chicago, Illinois (Project Number
08XG003NO000). The report responds to a request from the Executive Director,
International Operations, to determine if Web Mail Condition Reporting System
(WebMCRS) information is timely, complete, and accurate. This is the fourth in a series
of reviews addressing mail condition reporting at ISCs. Click here or go to Appendix A
for additional information about this audit.




Conclusion

The Chicago ISC submitted mail condition reports on a timely basis. However, we
found incomplete and inaccurate data in WebMCRS.
Mail Condition Reporting at the J.T. Weeker                                NO-AR-08-001
 International Service Center


Timely Reporting

The Chicago ISC submitted mail condition reports timely. During our observations,
management performed their respective mail condition counts between 5:30 a.m. and
6:30 a.m. Management provided counts to in-plant support by 6:30 a.m. for
consolidation to WebMCRS by 7:00 a.m. As required, the reports were available by
7:30 a.m. daily for management to discuss any operational issues with headquarters
executives.

Incomplete Reporting

The WebMCRS reports were incomplete as the Chicago ISC did not report mail volume
in all respective categories. During observations we noted the daily work floor mail
count volume was not reported as a line item in WebMCRS. For example, on
November 5 and 7, 2007, the Chicago ISC reported “0” mailpieces under the plan
failure category. However, the Chicago ISC should have reported a total of 13,518
mailpieces as plan failures. This occurred because in-plant support personnel did not
follow the webMCRS Training/User Guide. Instead, they followed unofficial procedures
for reporting mail volumes and only reported the mail volume counted in the
“Comments” section of the WebMCRS report. As a result, management cannot make
decisions based on WebMCRS data. Click here or go to Appendix B for our detailed
analysis of this issue.

We recommend the Executive Director, International Operations, direct the Manager,
Chicago International Service Center, to:

        1. Provide Web Mail Condition Reporting System training to ensure in-plant
           support employees know how to report mail volumes in all required respective
           categories.

Management’s Comments

Management agreed with our finding and recommendation. The Executive Director,
International Operations, directed the Chicago ISC Manager to provide WebMCRS
training to employees involved in the reporting process. The Chicago ISC Manager
subsequently indicated that he had implemented this recommendation. Management’s
comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation. Management’s
actions should correct the issue identified in the report.




                                              2
Mail Condition Reporting at the J.T. Weeker                                                            NO-AR-08-001
 International Service Center


Inaccurate Reporting

The WebMCRS reports were inaccurate as the Chicago ISC underreported plan
failures.1 Personnel counting the mail identified the plan failure volume correctly when
performing the daily mail counts. However, in-plant support recorded incorrect amounts
into WebMCRS. For example, on November 8 and 9, 2007, the Chicago ISC reported
188 mailpieces as plan failures, whereas it should have counted and reported a total of
12,117 mailpieces. Thus, the report was understated by 11,929 mailpieces.

To confirm our observations on November 8 and 9, 2007, we looked at plan failure data
reported over 40 days. During that time, the Chicago ISC reported 21,942 mailpieces
as plan failures whereas the actual mailpieces totaled 367,631. (See Appendix B, Table
3). The actual amount represents over 17 times more than originally reported. Again,
this occurred because in-plant support personnel followed unofficial procedures for
reporting plan failures. Based on these procedures, in-plant support personnel reported
the plan failure volume remaining at the end of the Management Operating Data
System2 (MODS) day (or 7:00 a.m.) rather than at the facility’s clearance time. As a
result, management cannot make decisions based on WebMCRS data. Click here or
go to Appendix B for our detailed analysis of this issue.

We recommend the Executive Director, International Operations, direct the Manager,
Chicago International Service Center, to:

         2. Report all categories of mail volume according to instructions and definitions
            contained in the webMCRS Training/User Guide, dated September 2007.

Management’s Comments

Management agreed with our finding and recommendation. On February 12, 2008, the
Executive Director, International Operations, directed the Chicago ISC Manager to
report all mail volume categories according to the instruction and definitions contained
in the webMCRS Training/User Guide. The Chicago ISC Manager subsequently
indicated that he had implemented this recommendation. Management’s comments, in
their entirety, are included in Appendix C.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation. Management’s
actions should correct the issue identified in the report.




1
  Plan Failure occurs when mail enters an operation prior to its Critical Entry Time (CET), but is not processed by the
line operation clearance time (CT).
2
  MODS is a system for gathering, storing, and reporting data on workload and workhours.



                                                           3
Mail Condition Reporting at the J.T. Weeker                               NO-AR-08-001
 International Service Center


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert J. Batta, Director,
Network Processing, or me at (703) 248-2100.
  E-Signed by Colleen McAntee
 ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Paul E. Vogel
    John W. Holden
    Katherine S. Banks




                                              4
Mail Condition Reporting at the J.T. Weeker                                                    NO-AR-08-001
 International Service Center



                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U. S. Postal Service’s Global Business Unit is responsible for mail processing
operations at ISCs. The Postal Service uses WebMCRS as a repository for information
on the status of mail processing operations. WebMCRS provides information to
management officials at all levels for analysis, forecasting, and planning. Specifically,
WebMCRS reports the volume of mail on-hand and the volume of mail ready for
processing. It also reports the volume of mail that has not met operational CT and/or
service commitments, according to the facility’s local operating plan. Personnel at the
facility manually count the mail when possible or estimate the mail count and enter data
in WebMCRS.3 Personnel should count all mail associated with the facility, regardless
of the amount, in its respective WebMCRS category (on-hand, plan failure, late arriving,
delayed processing, and delayed dispatch).

DEFINITIONS OF WebMCRS MAIL CATEGORIES

    •   On-Hand Mail – the total of all available mail at the beginning of the day, by
        designated operation within the facility, regardless of service commitment.
        Available mail includes, but is not limited to:

                Mail in the vehicle yard.

                Mail in transit between local or auxiliary processing facilities.

                Mail at the receiving dock that is waiting to be unloaded or is in the
                 process of being unloaded.

                Mail on the workroom floor, in the staging and storage areas, or ahead of
                 or in or between operations.

                All managed mail or area distribution volume.

    •   Plan Failure – occurs when mail enters an operation prior to its CET, but is not
        processed by the line operation CT.

    •   Late Arriving – mail received after the facility CET for the corresponding service
        commitment, regardless of its processing status.



3
  National standard conversion rates determine mail inventories. However, WebMCRS does not require conversion
to mailpieces prior to input. Employees enter volume by container and mail type and the system automatically
converts the inventory to mailpieces.



                                                      5
Mail Condition Reporting at the J.T. Weeker                                                               NO-AR-08-001
 International Service Center


       •    Delayed Processing – occurs when mail that arrived at a facility prior to the CET
            was not processed and finalized in time to be dispatched on the designated
            Dispatch of Value (DOV) to meet the programmed delivery day. This includes
            mail recovered within the facility from downstream operations after CT that will
            not meet its intended service commitment.

       •    Delayed Dispatch – occurs when mail is processed and finalized but not
            dispatched on its designated DOV trip.

The Chicago ISC is one of five ISCs. It processed about 152 million first handling
pieces (FHP)4 or about 18 percent of the total mail volume handled by all the ISCs in
fiscal year (FY) 2007. See Chart 1 for details.

                            Chart 1. ISCs’ Volume as a Percent of Total Mail
                                       Volume Handled - FY 2007




                                                                         Los Angeles
                                                                             7%           San Francisco
                                                                                              13%

                                                                                                 Miami
                                                                                                  6%



                       New York
                         56%
                                                                                           Chicago
                                                                                            18%




OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the timeliness, completeness, and accuracy of mail
condition data reported in WebMCRS for the Chicago ISC. To accomplish our objective
we conducted interviews with managers and employees and analyzed the facility’s
performance to identify trends and potential issues. We also performed analytical
procedures and observed mail condition counts. Further, we tested for timeliness by
verifying whether mail condition information was available in accordance with

4
    FHP – letters, flats, and parcels sorted in a local post office for the first time.



                                                                  6
Mail Condition Reporting at the J.T. Weeker                                  NO-AR-08-001
 International Service Center


WebMCRS daily reporting requirements. We assessed completeness by determining
whether facility personnel reported all available mail in all applicable WebMCRS
categories. Finally, we assessed accuracy by determining whether the volume
recorded in each category reflected the conditions at the facility.

We used computer-processed data from the WebMCRS Daily Facility Summary
generated from October through November 2007. We did not test controls over this
system. However, we checked the reasonableness of results by confirming our
analyses and results with Postal Service managers and multiple data sources.

We conducted this performance audit from October 2007 through March 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on December 26, 2007, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

We previously audited mail condition reporting at three ISCs and found:

    •   San Francisco ISC reports were submitted timely, but the data was incomplete
        and inaccurate.
    •   Miami ISC reports were submitted timely and the data was generally complete
        and accurate, with some minor exceptions.
    •   Los Angeles ISC reports were accurate, complete, and timely. However,
        improvements could be made in the reporting of inbound parcels and plan
        failures for each processing operation.

Management concurred with all the report recommendations and their planned actions
were responsive to the issues identified.

                                                                       Final Report
                   Report Title                   Report Number            Date
 Mail Condition Reporting at the San Francisco    NO-AR-07-006        August 20, 2007
 International Service Center
 Mail Condition Reporting at the Miami             NO-AR-07-009           September 20,
 International Service Center                                                 2007
 Mail Condition Reporting at the Los Angeles       NO-AR-07-010           September 24,
 International Service Center                                                 2007




                                              7
Mail Condition Reporting at the J.T. Weeker                                                     NO-AR-08-001
 International Service Center


                               APPENDIX B: DETAILED ANALYSIS

Incomplete Reporting

The mail condition reports were incomplete as the Chicago ISC did not report mail
volume in all required categories. During our onsite observations between November 5
and 7, 2007, the Chicago ISC reported “0” under the plan failure category. However,
the Chicago ISC should have reported a total of 13,518 mailpieces as plan failures (see
Table 1). This occurred because in-plant support personnel did not follow the
webMCRS Training/User Guide. Instead, they followed unofficial procedures for
reporting mail volumes in a particular line item and reported the daily floor counts in the
“Comments” section of WebMCRS rather than in the appropriate line item category.

As a result, management cannot rely on WebMCRS data in order to make operational
and distribution decisions, identify problems with achieving operational targets or
analyze operational trends. Furthermore, reporting in the “Comments” section may be
misleading as it should contain additional explanatory information regarding an issue
that was reported in a line item, not an actual mail count number.

                                     Table 1. Unreported Plan Failures

                                      11-5-2007         11-6-2007         11-7-2007
       Plan Failures                   Monday            Tuesday          Wednesday                Totals
Chicago ISC count at
                                         4,669                0               8,849               13,518
clearance time (midnight)
Reported in WebMCRS                         0                 0                  0                    0
Difference – incomplete
                                         4,669                0               8,849               13,518
reporting

Inaccurate Reporting

The WebMCRS reports were inaccurate as the Chicago ISC underreported plan
failures. During on-site observations between November 8 and 9, 2007, the Chicago
ISC reported 188 mailpieces as plan failures, whereas it should have counted and
reported a total of 12,117 mailpieces. Thus, the report was understated by 11,929
mailpieces (see Table 2). The policy5 requires employees to count plan failure volume
at midnight and enter it into the report by 7:00 a.m. Again, this occurred because in-
plant support personnel followed unofficial procedures for reporting plan failures. Based
on these procedures, in-plant support personnel reported the plan failure volume
remaining at the end of the MODS day (7:00 a.m.) rather than at the facility’s clearance
time of midnight. As a result, management cannot always rely on WebMCRS data in


5
   The webMCRS Training/User Guide, dated September 2007,requires personnel to count all mail volume and report
it in the respective WebMCRS categories on a daily basis.



                                                       8
Mail Condition Reporting at the J.T. Weeker                                          NO-AR-08-001
 International Service Center


order to make operational and distribution decisions, identify problems with achieving
operational targets or analyze operational trends.

                                   Table 2. Understated Plan Failures

                                              11-8-2007     11-9-2007
            Plan Failures                     Thursday        Friday               Totals
Chicago ISC count at clearance time
                                                9,112         3,005               12,117
(midnight)
Reported in WebMCRS                                80           108                  188
Difference – inaccurate reporting               9,032         2,897               11,929




     Illustration 1: Employee counting some of the 6,074 mailpieces of plan failure volume not
                    reported on October 24, 2007 (October 23, 2007, at 10:53 p.m.).

We confirmed our observations by examining plan failure data over 40 days. The
Chicago ISC reported 21,942 mailpieces as plan failures whereas the actual mailpieces
totaled 367,631 (see Table 3). The actual amount represents over 17 times more than
originally reported. We did not determine how long the Chicago ISC might have been
substantially underreporting mail. As a result, management cannot rely on WebMCRS
data in order to make operational and distribution decisions, identify problems with
achieving operational targets or analyze operational trends.




                                                 9
Mail Condition Reporting at the J.T. Weeker                                          NO-AR-08-001
 International Service Center


              Table 3. Reported Plan Failures Versus Actual Plan Failures

                                                       Reported Plan   Actual Plan
                  Date              Day of Week           Failure        Failure
                1-Oct-07              Monday               2,956          3,439
                2-Oct-07              Tuesday                0            1,146
                3-Oct-07            Wednesday                0            5,272
                4-Oct-07             Thursday               110           5,291
                5-Oct-07               Friday                0           13,146
                6-Oct-07             Saturday                0            3,671
                7-Oct-07              Sunday                160          28,069
                8-Oct-07              Monday                448          13,519
                9-Oct-07              Tuesday                0             965
               10-Oct-07            Wednesday                0              0
               11-Oct-07             Thursday                64           6,293
               12-Oct-07               Friday              3,622         14,986
               13-Oct-07             Saturday              1,388         23,819
               14-Oct-07              Sunday               3,368         16,505
               15-Oct-07              Monday                 0            7,385
               16-Oct-07              Tuesday                0             452
               17-Oct-07            Wednesday                0           19,349
               18-Oct-07             Thursday              1,156         11,363
               19-Oct-07               Friday               876          11,469
               20-Oct-07             Saturday              1,259          6,698
               21-Oct-07              Sunday               1,060          3,122
               22-Oct-07              Monday                 0            5,898
               23-Oct-07              Tuesday                0              0
               24-Oct-07            Wednesday                0            6,074
               25-Oct-07             Thursday              1,408         23,092
               26-Oct-07               Friday               998          10,088
               27-Oct-07             Saturday               801          20,846
               28-Oct-07              Sunday                820          15,963
               29-Oct-07              Monday                 0            9,236
               30-Oct-07              Tuesday                0              0
               31-Oct-07            Wednesday                0           13,068
               1-Nov-07              Thursday              1,028         18,946
               2-Nov-07                Friday               232           8,581
               3-Nov-07              Saturday                0            8,163
               4-Nov-07               Sunday                 0            6,082
               5-Nov-07               Monday                 0            4,669
               6-Nov-07               Tuesday                0              0
               7-Nov-07             Wednesday                0            8,849
               8-Nov-07              Thursday                80           9,112
               9-Nov-07                Friday               108           3,005
                                       Reported           21,942
                           Should Have Reported                         367,631




                                                  10
Mail Condition Reporting at the J.T. Weeker            NO-AR-08-001
 International Service Center



                   APPENDIX C. MANAGEMENT’S COMMENTS




                                              11
